                                                           IG-00-038




AUDIT
                             NASA’S ORGANIZATIONAL STRUCTURE FOR
REPORT                       IMPLEMENTING THE CLINGER-COHEN ACT

                                         July 17, 2000




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
 Space Administration
    Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232 or visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


   Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

Assistant Inspector General for Auditing
Code W
NASA Headquarters
Washington, DC 20546-0001




   NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.


   Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CIO                 Chief Information Officer
GAO                 General Accounting Office
IRM                 Information Resources Management
IT                  Information Technology
NPG                 NASA Procedures and Guidelines
OMB                 Office of Management and Budget
PMC                 Program Management Council
W                                                                                      July 17, 2000




TO:                A/Administrator

FROM:              Inspector General

SUBJECT:           INFORMATION: NASA's Organizational Structure for
                   Implementing the Clinger-Cohen Act
                   Report Number IG-00-038

The NASA Office of Inspector General has completed an audit of the Agency’s Organizational
Structure for Implementing the Clinger-Cohen Act.1 We found that NASA can improve its Chief
Information Officer (CIO) organization to more effectively implement the requirements of the Act.
The NASA CIO is not a full member of the Capital Investment Council (the Council). By
appointing the CIO to the Council, the Agency can better comply with the Clinger-Cohen Act and
related guidance regarding the intended authority of the CIO position. In addition, most Center
CIO Representatives are not full members of Center-level Program Management Councils
(PMC’s).2 As a result, NASA lacks assurance that information technology (IT)3 will receive
appropriate emphasis in Center-level program oversight activities. Finally, the NASA CIO has not
met the Clinger-Cohen requirement to annually assess the knowledge and skill of senior managers in
information resources management (IRM)4 and has not developed specific plans to remedy possible
deficiencies in meeting established knowledge and skill requirements. Consequently, the Agency
has not yet complied with statutory requirements and lacks assurance that executive-level personnel
are appropriately qualified in IRM.




1
  The Clinger-Cohen Act was formerly titled the Information Technology Management Reform Act.
2
  NASA has established a hierarchy of PMC’s that are responsible for assessing program and project formulation and
implementation and for providing oversight and direction. PMC’s exist at the Agency, Lead Center, and Center levels.
3
  The Clinger-Cohen Act defines "information technology" as any equipment or interconnected system or subsystem of
equipment, that is used in the automatic acquisition, storage, manipulation, management, movement, control, display,
switching, interchange, transmission, or reception of data or information by the executive agency.
4
  U.S. Code 44, as referenced from the Clinger-Cohen Act, defines "information resources management" as the process of
managing information resources to accomplish agency missions and to improve agency performance, including reducing
information collection burdens on the public.
                                                                                                                       2

Background

In February 1996, Congress enacted the Clinger-Cohen Act to improve the way Federal agencies
acquire and manage IT resources. To assure clear accountability for IT management activities, the
Clinger-Cohen Act specified that each agency establish a CIO with the following responsibilities:

    •    Provide advice and other assistance to the head of the executive agency and other senior
         management personnel to ensure that IT is acquired and information resources5 are
         managed in a manner that implements the specific requirements of the Act.
    •    Develop, maintain, and facilitate the implementation of a sound and integrated IT
         architecture.
    •    Promote the effective and efficient design and operation of all major IRM processes for the
         executive agency, including improvement to work processes.

Additionally, a CIO is responsible for annually assessing the extent to which senior management
personnel meet the requirements established for knowledge and skill in IRM. To meet these
responsibilities, each agency head must involve the CIO in IT decision-making at the highest level of
the agency.

Recommendations

We recommended that the Associate Deputy Administrator strengthen the role of the NASA CIO
by appointing the CIO as a full member of the NASA Capital Investment Council. Similarly, we
recommended that the NASA CIO strengthen the role of Center CIO Representatives in program
oversight by revising policies, procedures, and guidelines to require Center Directors to appoint
their Center CIO Representatives as full members of Center-level PMC’s. Lastly, we
recommended that the NASA CIO reprioritize the Agency’s approach to assessing the IT
knowledge and skill of the workforce to initially focus on executive-level managers.

Management Response

Management concurred with the findings and recommendations. The Associate Deputy
Administrator appointed the NASA CIO to the Capital Investment Council on June 1, 2000. In
addition, the NASA CIO issued a letter to Center Directors, requesting that they appoint Center
CIO Representatives to Center-level PMC’s. Finally, the NASA CIO restructured the Agency’s
approach to assessing NASA’s workforce IT knowledge and skills to focus on NASA’s executive-
and senior-level managers.


5
  U.S. Code 44, as referenced from the Clinger-Cohen Act, defines "information resources" as information and related
resources, such as personnel, equipment, funds, and information technology.
                                                                                 3

The details on the status of the recommendations are in the Executive Summary.




[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of NASA’s Organizational Structure
 for Implementing the Clinger-Cohen Act
NASA'S ORGANIZATIONAL STRUCTURE FOR
IMPLEMENTING THE CLINGER-COHEN ACT
W                                                                           July 17, 2000


TO:              AE/Chief Engineer
                 AI/Associate Deputy Administrator
                 AO/Chief Information Officer

FROM:            Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of NASA’s Organizational
                 Structure for Implementing the Clinger-Cohen Act
                 Assignment Number A9903400
                 Report Number IG-00-038

The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Your comments on a draft of this report were responsive, and actions are
sufficient to close recommendation 1 for reporting purposes. For recommendations 2 and 3,
we request that you notify us of the actions taken, including the extent of testing performed to
ensure corrective actions are effective. Recommendations 2 and 3 will remain open for
reporting purposes.

If you have questions concerning the report, please contact Mr. David L. Gandrud, Program
Director, Information Technology Program Audits, at (650) 604-2672, or Mr. Roger W. Flann,
Program Manager, at (818) 354-9755. We appreciate the courtesies extended to the audit
staff. The report distribution is in Appendix E.


[original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 3

     Finding A. Role of the NASA CIO in Capital Investment
                Decision-Making, 3

     Finding B. Role of Center CIO Representatives in Program
                Oversight, 7

     Finding C. Assessing IT Knowledge and Skill, 11

Appendix A – Objectives, Scope, and Methodology, 13

Appendix B – Summary of Prior Coverage, 15

Appendix C – NASA Programs and Projects, 16

Appendix D – Management’s Response, 19

Appendix E – Report Distribution, 28
                        NASA Office of Inspector General

IG-00-038                                                                      July 17, 2000
 A9903400

            NASA’s Organizational Structure for Implementing
                        the Clinger-Cohen Act

                                  Executive Summary

Background. Congress enacted the Clinger-Cohen Act to improve the way Federal agencies
acquire and manage IT resources. The Clinger-Cohen Act requires that each agency establish a
CIO with clear accountability for IT management activities.

Objectives. The overall objective was to determine whether NASA has established a CIO
organization that can effectively implement the requirements of the Clinger-Cohen Act.
Specifically, we examined selected duties, responsibilities, and authority of the NASA CIO and
his representatives. Details on our objectives, scope, and methodology are in Appendix A.
Details on a prior report we issued on the Clinger-Cohen Act are in Appendix B.

Results of Audit. NASA can improve its CIO organization to more effectively implement the
requirements of the Clinger-Cohen Act.

   •   The NASA CIO is not a full member of the Capital Investment Council (the Council).
       By appointing the CIO to the Council, the Agency can better comply with the
       Clinger-Cohen Act and related guidance regarding the intended authority of the CIO
       position.

   •   Most Center CIO Representatives are not full members of Center-level PMC’s. As a
       result, NASA lacks assurance that IT will receive appropriate emphasis in Center-level
       program oversight activities.

   •   The NASA CIO has not met the Clinger-Cohen requirement to annually assess the
       knowledge and skill of senior managers in IRM and has not developed specific plans to
       remedy possible deficiencies in meeting established knowledge and skill requirements.
       Consequently, the Agency has not yet complied with statutory requirements and lacks
       assurance that executive-level personnel are appropriately qualified in IRM.


Recommendations. NASA should strengthen the role of the NASA CIO by appointing the
CIO as a full member of the NASA Capital Investment Council. Similarly, the Agency should
strengthen the role of Center CIO Representatives in program oversight by revising policies,
procedures, and guidelines to require Center Directors to appoint their Center CIO
Representatives as full members of Center-level PMC’s. Lastly, the NASA CIO should
reprioritize the Agency’s approach to assessing the IT knowledge and skill of the workforce to
initially focus on executive-level managers.

Management’s Response. Management concurred with all recommendations. On June 1,
2000, management appointed the NASA CIO to the Capital Investment Council. Also, the
NASA CIO asked the Center Directors to appoint Center CIO Representatives to Center-
level PMC’s. Lastly, the Agency will initially focus on NASA’s executive- and senior-level
managers in assessing NASA’s workforce IT knowledge and skill. The complete text of
management’s comments is in Appendix D.

Evaluation of Management’s Response. The actions taken or planned by management are
responsive to the recommendations. We consider the recommendation related to appointing the
NASA CIO to full membership on the Capital Investment Council closed for reporting
purposes. The recommendations related to appointing Center CIO Representatives as full
members of Center-level PMC’s and reprioritizing the Agency’s approach to the “IT

completed.




                                               ii
Introduction

In February 1996, Congress enacted the Clinger-Cohen Act to reform and improve the way
Federal agencies acquire and manage IT resources. Central to implementing these reforms is
the need to establish effective IT leadership within each agency. The law requires each agency
head to establish clear accountability for IT management activities by appointing an agency CIO
with the visibility and management responsibilities necessary to carry out the specific provisions
of the Act. The CIO plays a critical leadership role in driving reforms to (1) help control system
development risks; (2) better manage technology spending; and (3) succeed in achieving real,
measurable improvements in agency performance.

In February 1995, prior to enactment of the Clinger-Cohen Act, NASA established the CIO
position as an executive-level manager within the Office of the Administrator. The NASA CIO
is the principal advisor to the Administrator and other senior officials on matters pertaining to IT.
NASA Procedures and Guidelines (NPG) 2800.1, “Managing Information Technology,”
September 1998, states that the CIO is responsible for establishing IT policies and for
promoting standards and a secure architecture to support scientific, engineering, and
administrative data requirements.

Since establishing the CIO position, the Agency has developed and refined a CIO organization
to support the CIO in carrying out his responsibilities. This organization includes a Center CIO
Representative at each NASA Center. Center Directors appoint Center CIO Representatives
who remain accountable to Center management while working on a collaborative basis with the
NASA CIO. Center CIO Representatives are responsible for ensuring that Agency IT policy,
plans, architectures, standards, procedures, practices, and guidance are implemented for their
respective organizations.

The Agency has also incorporated IT as a key focus area in capital investment and program
management processes. Within NASA’s capital investment process, IT is designated as a key
investment area for consideration by the Capital Investment Council. The Council is the
principal advisory group to the Administrator in prioritizing capital investments and balancing
resources among the Agency’s Strategic Enterprises.6 Within NASA’s program management
process, IT requirements are integrated into the planning and technical management effort
throughout a program’s life cycle and are reviewed by the cognizant PMC. PMC’s exist at the
Agency, Lead Center, and Center levels to oversee the formulation, approval, implementation,
and evaluation of Agency programs and projects.

In August 1996, the General Accounting Office (GAO) issued an audit report on “NASA Chief
Information Officer: Opportunities to Strengthen Information Resources Management.” GAO
reported that although NASA was one of the first Federal agencies to appoint a CIO and had

6
 The Agency’s four Strategic Enterprises are (1) Aero-Space Technology, (2) Earth Science, (3) Human Exploration
and Development of Space, and (4) Space Science.
taken some good first steps toward improving its information resources management,
opportunities still existed to enhance the CIO’s authority. GAO concluded that more authority
for the CIO could result in improved economies and efficiencies in information technology. In
responding to GAO’s audit observations, NASA disagreed that the authority and responsibility
of the CIO should be significantly strengthened. Further, the Agency described several
revisions to the CIO management structure that addressed some of the challenges discussed in
the GAO report. GAO acknowledged that the revisions may ameliorate its concerns over time,
but stated that it was still too early to determine the effectiveness of the revised management
structure.




                                               2
Findings and Recommendations

Finding A. Role of the NASA CIO in Capital Investment
           Decision-Making

The NASA CIO is not a full member of the Capital Investment Council because the Agency has
limited Council membership to managers having direct budget authority.7 By appointing the
CIO to the Council, the Agency can better comply with the Clinger-Cohen Act and related
guidance regarding the intended authority of the CIO position. Further, the Agency can also
better assure that IT will be given appropriate consideration in Council deliberations.


Requirements and Related Guidance

The Clinger-Cohen Act requires that each Federal agency create a CIO to help ensure that IT
is acquired and information resources are managed in a manner that implements the specific
policies and procedures of the Act. Further, the Act requires that each agency design and
implement a capital planning and investment control process for maximizing the value and
assessing and managing the risks of IT acquisitions. This process must be integrated with the
process for making budget, financial, and program management decisions.

In July 1996, the President issued Executive Order 13011, “Federal Information Technology.”
The Order required executive agencies to provide clear accountability for information resources
management activities by establishing CIO’s with the visibility and management responsibilities
necessary to advise the agency head on the design, development, and implementation of
information systems.

In November 1995, the Office of Management and Budget (OMB) issued guidance8 identifying
three overall organizational attributes that are critical to the success of an IT investment
evaluation process. The first of these critical attributes is senior management attention. The
OMB guidance states that a key mechanism in achieving accountability for the success of IT
projects is to routinely involve program management, financial management, and IT management
in operational decisions. Similarly, a GAO report9 states:

         An agency should place its CIO at a senior management level, making the CIO an equal partner with
         other senior officials in decision-making with regard to IRM issues, and supporting the position
         with an effective organizational framework for leading agency-wide IRM initiatives.


7
  The former Executive Secretary of the Capital Investment Council told us that, at the time the Council was formed,
the NASA Administrator and Deputy Administrator limited Council membership to managers with direct budget
authority.
8
  The guidance was in OMB report, “Evaluating Information Technology Investments: A Practical Guide.”
9
  GAO report, GAO/AIMD-96-78, “NASA Chief Information Officer: Opportunities to Strengthen Information
Resources Management,” was issued in August 1996.


                                                           3
In March 2000, GAO issued an Executive Guide10 on implementing effective CIO
organizations. The guide identifies critical success factors for effective information management
in leading organizations. One of these success factors focuses on the role of the organization’s
senior executive managers in developing a culture that includes the CIO in senior-level decision-
making. The guide states that an agency’s executive-level managers, “…must embrace the
central role of technology, and the CIO must be at the table with them as business strategy is
discussed.” Although leading organizations generally include their CIO’s in executive business
decision-making, in the Federal Government, information management is often managed as a
support function.

NPG 1000.2, “NASA Strategic Management Handbook,” February 2000, defines the
strategic management roles and relationships of NASA’s organizational elements. Major
operational and investment decisions are made at several levels. The Administrator is the
highest level decision-maker, providing overall strategic direction, internal policies, and budget
priorities. The Council makes recommendations regarding significant Agency-wide capital
investments and infrastructure initiatives, including IT programs, projects, and investments. The
Council plays a critical role in the Agency’s capital planning process. The Council is the
principal advisory group to the NASA Administrator in resolving issues, prioritizing activities,
and balancing resources among the Agency’s Strategic Enterprises. The Handbook identifies
IT as a key investment area for Council consideration.

NPG 2800.1, “Managing Information Technology,” September 17, 1998, defines the role of
the NASA CIO and the IT Investment Council. The CIO is the principal advisor to the
Administrator and other senior officials on matters pertaining to IT. The CIO is also the primary
advocate for the Agency’s IT investment strategy. Additionally, the CIO chairs the IT
Investment Council. This council establishes Agency-level IT policies and provides a forum for
addressing Agency-level initiatives and issues. The IT Investment Council sets the IT investment
strategy for the Agency and serves as the IT capital investment advisory group to the Capital
Investment Council.


Role of the NASA CIO

Thirteen senior NASA managers are full members of the Capital Investment Council – the CIO
is not. Although IT is an important element in capital investment decision-making,11 the NASA
CIO’s responsibilities with respect to the Capital Investment Council are limited to providing


10
   The exposure draft of GAO Executive Guide, GAO/AIMD-00-83, is titled, “Maximizing the Success of Chief
Information Officers: Learning from Leading Organizations.”
11
   The NASA IT budget for fiscal year 2000 is approximately $1.7 billion and supports more than 40 Agency
programs.



                                                       4
support for Council deliberations. Agency membership in the Capital Investment Council12
consists of the following:

     •    Associate Deputy Administrator (Chair)
     •    Chief Financial Officer
     •    Chief Engineer
     •    Chief Scientist
     •    Enterprise Associate Administrators13
     •    Center Directors (two, 2-year rotational terms)
     •    Associate Administrator for Human Resources and Education
     •    Associate Administrator for Management Systems and Facilities
     •    Associate Administrator for Life and Microgravity Sciences and Applications

Influential IT leadership is crucial in accomplishing NASA’s missions and programs efficiently,
effectively, and securely. In this regard, Executive Order 13011 requires the Agency to give its
senior IT decision-maker the visibility and management responsibilities necessary to fully
implement the requirements of the Clinger-Cohen Act. Although NASA has given the CIO
significant authority by establishing him as chair of the NASA IT Investment Council, the
Agency has not given the CIO the level of authority needed to help provide sufficient, direct
influence in capital investment decision-making.

The NASA CIO is not a full member of the Capital Investment Council because the Agency
limited Council membership to managers having budget authority. When the CIO position was
initially formulated, NASA decided the CIO would not have direct budget authority over IT
investments. According to GAO report GAO/AIMD-96-78 (see footnote 9), NASA
concluded that, “The CIO would not take part in individual program decisions and would not
have responsibility for setting priorities, making trade-offs, or forming investment decisions
among NASA-wide IT systems 14 and programs.”

Because the CIO is not a member of the Capital Investment Council, the Agency has not fully
complied with the Clinger-Cohen Act and related guidance regarding the CIO’s intended
authority and influence. The CIO should be an equal partner with other senior-level officials in
the Agency’s capital investment decision-making. Because the Capital Investment Council is
the Agency’s highest-level council for such decision-making, the CIO should participate as a full
member. Until the CIO becomes a member of the Capital Investment Council, the Agency also

12
   In addition to the full members of the Council, the NASA General Counsel and Associate Administrator for
Legislative Affairs serve as ex officio advisors.
13
   NASA has four Strategic Enterprises (see footnote 6). The senior official in each Enterprise is the Associate
Administrator having principal responsibility for developing long-term strategy and ensuring that the necessary
capabilities are in place to meet near-term program objectives and long-term goals.
14
   U.S. Code 44, as referenced from the Clinger-Cohen Act, defines an "information system" as a discrete set of
information resources organized for the collection, processing, maintenance, use, sharing, dissemination, or disposition
of information.


                                                            5
lacks assurance that IT will be given appropriate consideration in Council deliberations. To
assess the extent to which IT issues were considered in Capital Investment Council meetings,
we examined minutes of Council meetings in 1999.15 The minutes showed no clear indication
that IT had been discussed or considered.

The Agency can ensure that IT is given due consideration in major capital investment decision-
making by elevating the role of the CIO from “advisor” to “full member” of the Capital
Investment Council. CIO membership would help give IT full consideration in the Council’s key
investment decisions and help the Agency in satisfying the intent of the Clinger-Cohen Act.


Recommendation, Management’s Response, and Evaluation of
Response

1. The Associate Deputy Administrator should appoint the NASA CIO to full
   membership on the Capital Investment Council.

Management’s Response. Concur. Management appointed the NASA CIO to the Capital
Investment Council on June 1, 2000. The full text of management’s response and a copy of the
memorandum on the appointment are in Appendix D.

Evaluation of Response. Management action is responsive to the recommendation. The
action take by management is sufficient to disposition the recommendation and close it for
reporting purposes.




15
  The Capital Investment Council conducted 18 meetings in 1999; however, minutes exist only for those 6 meetings
that did not focus on budgetary issues.


                                                         6
Finding B. Role of Center CIO Representatives in Program Oversight

Most Center CIO Representatives are not full members of Center-level16 PMC’s. This
condition exists because NASA has no policy that requires Center Directors to appoint CIO
Representatives as full PMC members and that ensures the representatives are fully involved in
the PMC oversight process. As a result, the Agency lacks assurance that IT will receive
appropriate emphasis in Center-level program and project oversight activities.


Requirements and Related Guidance

The Clinger-Cohen Act, section 5122, requires agencies to design and implement an IT capital
planning and investment control process that shall be, “...integrated with the processes for
making ... program management decisions within the executive agency.”

NPG 7120.5A, “NASA Program and Project Management Processes and Requirements,”
April 3, 1998, identifies IT as a critical management area applicable to all programs and
projects and specifies that IT requirements be integrated throughout the program and project
management process. Also, NPG 7120.5A describes a hierarchy of PMC’s to ensure that
programs and projects receive an appropriate level of management oversight. At the highest
level of the hierarchy, the Agency PMC is responsible for evaluating proposals for new
programs; providing recommendations to the Administrator; and evaluating existing programs
for cost, schedule, and technical content. The hierarchy also includes PMC’s at the Center
level. Similar to the Agency PMC, Center-level PMC’s evaluate cost, schedule, and technical
content to ensure that Center-level programs and projects meet their commitments.

The NASA CIO is the senior IT official at the Agency level. NPG 2800.1, “Managing
Information Technology,” September 17, 1998, identifies the CIO as a full member of the
Agency PMC, “…to assure that the IT investments which enable mission-focused programs
and projects are given appropriate visibility and review.” Center CIO Representatives are the
senior IT officials at their respective Centers and are responsible for:

     •   Implementing an effective IT investment plan consistent with Agency, Enterprise, and
         Center policies, goals, and standards.
     •   Concurring on all Center major IT investments to assure policy and procedural
         compliance with standards.
     •   Advising and counseling Center senior managers, including program managers, on IT
         investments.


16
  The report uses the term “Center-level PMC’s” to refer to both Lead Center and Center-level PMC’s. NASA
assigns to a Lead Center PMC all multi-Center programs and projects that do not require review by the Agency PMC.
Also, NASA assigns to a Center-level PMC all single-Center programs and projects not reviewed by a higher level
PMC.


                                                        7
     •   Ensuring that implementation procedures and Center standards are established in
         compliance with Agency and Enterprise policies and standards.
     •   Reporting to an individual who has management and budgetary authority to implement
         Center IT investment decisions.
     •   Coordinating the Center IT budgets, requirements, and investments with Enterprise CIO
         Representatives.
     •   Representing and, as necessary, committing the Center at Agency management
         meetings.
     •   Assuring a secure IT environment, resolving areas of duplication, and encouraging IT
         training for Center personnel.


Role of Center CIO Representatives

Of nine Center CIO Representatives,17 seven are not full members of Center-level PMC’s.
Center Directors had not granted full membership to the Center CIO Representatives even
though:

     •   The NASA CIO is a full member of the Agency PMC.
     •   NASA policy acknowledges that IT is a “critical management area” that is universally
         applicable to all NASA programs.
     •   Center-level PMC’s exist to oversee the formulation, approval, implementation, and
         evaluation of all NASA programs and projects that are not reviewed by the Agency
         PMC. Center-level PMC’s were responsible for reviewing 18 NASA programs and
         200 projects. Of those, 17 programs and 157 projects were managed by Centers that
         did not assign Center CIO Representatives to the Center-level PMC’s (see Appendix
         C).

At Goddard Space Flight Center (Goddard), the Center Director plans to change the
membership of the Center-level PMC to include the Center CIO Representative as a full
Council member. A Goddard CIO official stated that Center management intends to elevate the
authority of the Center CIO Representative because Goddard wants to send a signal to both the
Goddard community and external colleagues that information science and IT are strategic
assets.

At John F. Kennedy Space Center (Kennedy), the CIO Representative is a PMC member and
has made valuable contributions to Council oversight activities. During a Kennedy PMC
meeting, a manager discussed plans to purchase a commercial off-the-shelf software package
that would link computers and allow users to view the same information at the same time. The
17
  CIO Representatives are members of Center-level PMC’s at Lyndon B. Johnson Space Center and
John F. Kennedy Space Center. CIO Representatives are not members of Center-level PMC’s at the following Centers:
Ames Research Center, Dryden Flight Research Center, John H. Glenn Research Center at Lewis Field, Goddard Space
Flight Center, Langley Research Center, George C. Marshall Space Flight Center, and John C. Stennis Space Center.


                                                       8
Center CIO Representative identified the package as having an IT security vulnerability and
began working with the manager to identify a more secure software package. At another PMC
meeting held to discuss the status of a joint-base operations support contract between NASA
and the Air Force, the Air Force requested that its security standards be applied to the contract.
The Center CIO Representative noted that the Air Force policies would limit Kennedy's
communication with the other NASA Centers and began working with the Air Force to resolve
the issue. These examples illustrate how Center CIO Representatives can provide influential IT
management through full Council membership.

Most Center CIO Representatives are not full members of Center-level PMC’s because
NASA has no policy requiring Center Directors to appoint CIO Representatives as full PMC
members. Absent such a policy, only two of nine Center Directors have appointed Center CIO
Representatives to Center-level PMC’s. Agency policy should be revised to ensure that all
Center Directors emphasize influential and effective IT management by appointing Center CIO
Representatives to full Council membership. Further, Center Directors should ensure that
Center CIO Representatives are fully involved in all aspects of the PMC oversight process

Because most Center CIO Representatives are not full members of Center-level PMC’s, they
do not have the visibility and authority possible through full Council membership. Consequently,
the Agency lacks assurance that IT will receive appropriate emphasis in program and project
oversight activities. Just as membership on the Agency PMC provides needed visibility and
authority for the NASA CIO, membership on Center-level PMC’s would provide needed
visibility and authority for Center CIO Representatives.


Recommendation, Management’s Response, and Evaluation of
Response

2. The NASA CIO should coordinate with cognizant Agency officials to revise
   appropriate policies, procedures, and guidelines to require Center Directors to
   appoint Center CIO Representatives as full members of Center-level PMC’s.

Management’s Response. Concur. In May 2000, the NASA CIO began regular
teleconferences with Center Directors to discuss CIO issues including the appointment of
Center CIO Representatives to Center-level PMC’s. Additionally, the NASA CIO sent a
letter to the Center Directors, requesting that they appoint Center CIO Representatives to
Center-level PMC’s (see Appendix D). The NASA CIO anticipates that all appointments will
be made by September 30, 2000.

Management stated that the audit report should acknowledge that the Goddard CIO
Representative has been a full voting member of the Center PMC since November 1999.
However, Goddard procedures and guidelines have not yet been modified to reflect this change.



                                                9
Evaluation of Response. The initial actions taken by management are responsive to the
recommendation. However, the recommendation will remain undispositioned and open pending
evidence of Center CIO Representative appointments as full members to Center-level PMC’s
and evidence of related changes to Center-level policies, procedures, and guidelines. The
report does not reflect the Goddard CIO Representative’s appointment to the Center-level
PMC because Goddard’s policies and procedures do not yet reflect this change.




                                           10
Finding C. Assessing IT Knowledge and Skill

The NASA CIO has not met the Clinger-Cohen Act requirement to annually assess the
knowledge and skill of senior managers in IRM. Further, the CIO has not met the Act’s
requirement to develop specific plans to remedy possible deficiencies in meeting established
knowledge and skill requirements. These conditions exist because the CIO’s office has instead
undertaken a broad and time-consuming effort to assess the IT knowledge and skill of NASA’s
entire workforce. As a result, the Agency has not yet complied with statutory requirements and
lacks assurance that personnel in executive-level positions are appropriately qualified in IRM.


Clinger-Cohen Act Requirement

The Clinger-Cohen Act, Section 5125, states that the CIO shall annually:

       •   assess the extent to which the positions and personnel at the executive level of the agency and
           the positions and personnel at management level of the agency below the executive level meet .
           . . [established knowledge and skill] requirements; and

       •   in order to rectify any deficiency in meeting those requirements, develop strategies and specific
           plans for hiring, training, and professional development.



Assessments of IRM Knowledge and Skill

The NASA CIO has neither assessed the IRM knowledge and skill of senior managers as
required by the Clinger-Cohen Act nor developed specific plans to remedy possible deficiencies
in meeting established requirements. These conditions exist because the CIO has undertaken a
much broader effort, called the “IT Workforce Challenge,” that will assess the IT knowledge
and skill of virtually all NASA employees.

The CIO’s efforts regarding knowledge and skill levels began in June 1999 with establishment
of an Agency-wide team to address the “IT Workforce Challenge.” Since then, the team has:

   •   Developed a model depicting the overall IT knowledge of NASA’s workforce.
   •   Begun to develop a Strategic Plan for addressing IT workforce issues (the team plans to
       publish the plan in spring 2000).
   •   Conducted a survey to obtain a high-level insight into current and desired IT skill levels,
       future skill needs, and the loss of IT skills due to personnel turnover and future
       retirements.

In addition, the team has developed a survey that will be issued to all NASA Centers as a
special focus area in the fiscal year 2002 Program Operating Plan cycle. The goal of the survey



                                                       11
is to obtain Center-level information about strategies and specific plans for hiring, training, and
retaining the appropriate IT skills to meet the Center missions. To date, the
efforts of the CIO and the “IT Workforce Challenge” team have been directed toward
assessing the aggregate IT workforce rather than assessing knowledge and skill on an individual
basis.

The CIO’s approach to the “IT Workforce Challenge” goes beyond the Clinger-Cohen Act
requirement to assess senior management. The CIO’s plans are commendable, but the
additional time required to complete this broader effort will substantially delay the Agency’s
ability to fully comply with the Act. The Clinger-Cohen Act became effective 3 years ago, yet
CIO personnel are still unable to estimate when the Agency will fully comply with the
knowledge and skill requirements of the Act.

The Department of the Treasury (Treasury) has adopted an incremental approach to assessing
the knowledge and skill of its workforce in IRM. Treasury’s approach initially addressed the
knowledge and skill of its senior decision-makers and is now addressing the knowledge and
skill of its entire workforce. Treasury CIO officials concluded that an incremental approach will
permit the Department to comply in a timely manner with the specific requirements of the
Clinger-Cohen Act and, more important, to help assure that Treasury senior managers possess
the appropriate IRM knowledge and skill. By incorporating the incremental approach into the
“IT Workforce Challenge” initiative, NASA can more readily comply with statutory
requirements and assure that executive-level managers are suitably qualified in IRM. Further,
the Agency can develop timely training plans that more closely relate to the training needs of its
senior managers.


Recommendation, Management’s Response, and Evaluation of
Response

3. The NASA CIO should reprioritize the Agency’s approach to the “IT Workforce
   Challenge” to initially focus on assessing the IRM knowledge and skill of
   executive-level managers and to develop specific training plans to address possible
   deficiencies in meeting established IRM requirements.

Management’s Response. Concur. The IT Workforce Challenge Program has initiated an
activity to assess the IT knowledge and skill of NASA’s executive- and senior-level managers
using a Web-based assessment instrument (see Appendix D). Management will analyze the
assessment results and make appropriate recommendations for training and developmental
activities. The NASA CIO anticipates that corrective actions will be completed by December
31, 2000.




                                                12
Evaluation of Response. Management’s planned and completed actions are responsive to
the recommendation. However, the recommendation will remain undispositioned and open
until agreed-to corrective actions are completed.




                                          13
              Appendix A. Objectives, Scope, and Methodology

Objective

The overall objective was to determine whether NASA has established a CIO organization that
can effectively implement the requirements of the Clinger-Cohen Act. Specifically, we
examined selected duties, responsibilities, and authority of the NASA CIO and his
representatives.


Scope

We limited the scope of this audit to those sections of the Clinger-Cohen Act directly related to
the announced audit objectives. Other important aspects of the Act were not addressed. For
example, section 5123 of the Act requires the head of an executive agency to ensure that
information security policies, procedures, and practices are adequate. Review of information
security was beyond the scope of this audit. Similarly, section 5113 requires that agencies
establish effective and efficient capital planning processes for selecting, managing, and evaluating
the results of its major investments in information systems. NASA’s capital planning and
investment control processes were also beyond the scope of this audit; however, we addressed
those processes in a previous audit report (see Appendix B for details).


Methodology

To assess the duties and responsibilities of the NASA CIO, we held discussions with the
NASA CIO, members of the CIO’s staff, CIO Representatives, and other NASA personnel
associated with program and project management. We reviewed organization charts, PMC
charters, position descriptions, Capital Investment Council minutes, and other relevant
documentation. We submitted questionnaires to CIO Representatives and analyzed their
responses.

To assess compliance with Clinger-Cohen Act knowledge and skill requirements, we held
discussions with the NASA CIO and members of the CIO’s staff charged with leading the “IT
Workforce Challenge.” We learned that the CIO at the Department of the Treasury had
assessed the knowledge and skill of Treasury’s senior IT managers. Accordingly, we reviewed
related Treasury reports and held discussions with cognizant officials. We compared Treasury’s
approach for meeting the knowledge and skill requirements with the NASA CIO approach.




                                                 14
Appendix A

Management Controls Reviewed

We reviewed management controls relating to NASA’s organizational structure for implementing the
Clinger-Cohen Act. We considered the management controls to be adequate except that the role
of the NASA CIO and Center CIO Representatives should be strengthened (see Findings A and
B). We also reviewed controls relating to management’s assessment of IT knowledge and skill
within the NASA workforce. We considered the management controls to be adequate except that
the assessment process should be reprioritized to comply in a timely manner with the Clinger-Cohen
Act (see Finding C).


Audit Field Work

We performed the audit field work from July 1999 through March 2000 at NASA Headquarters,
John H. Glenn Research Center, John F. Kennedy Space Center, and Langley Research Center.
We conducted the audit in accordance with generally accepted government auditing standards.




                                              15
                    Appendix B. Summary of Prior Coverage


The NASA Office of Inspector General has issued another report related to the Clinger-Cohen
Act. See www.hq.nasa.gov/office/oig/hq/issuedaudits.html for a copy of the report.

“Audit of Information Technology Capital Planning and Investment Control,” Report
Number IG-98-034, September 25, 1998. The NASA IT investment process does not
satisfy the Clinger-Cohen Act or OMB requirements for postimplementation reviews of major
new IT investments. Although NASA has established a program and project evaluation
process, it differs from that required by both the Clinger-Cohen Act and OMB requirements in
that NASA has focused on assessing systems in the selection and control phases of the IT
investment process rather than on assessing fully operational systems. In addition, the Agency’s
existing evaluation process results in conclusions regarding one specific program or project,
whereas a postimplementation review should result in improvements in the overall capital
planning and investment control process. We made recommendations to ensure that NASA’s
process for evaluating IT investments is fully compliant with Clinger-Cohen and OMB
requirements. Management concurred with the recommendations and agreed that the CIO
would submit a change proposal to NPG 7120.5A , “NASA Program and Project
Management Processes and Requirements,” April 3, 1998. In an April 5, 2000, memorandum
to the Assistant Inspector General for Auditing, the CIO stated that NPG 7120.5A had been
revised to address planning and investment requirements throughout the entire information
technology lifecycle. The Office of Inspector General will review the applicable revisions to the
draft document.




                                               16
                      Appendix C. NASA Programs and Projects

The NASA programs and projects listed below were subject to review by seven Center-level
PMC's during the period from December 5, 1999, through February 10, 2000. These Centers
did not assign Center CIO Representatives to the Center-level PMC’s.

Ames Research Center

Computational AeroSciences                               Rotorcraft
NASA Research and Education Network                      Design for Efficient and Affordable Rotorcraft
Learning Technologies                                    Safe All-weather Flight Operations for Rotorcraft
Advanced Air Transportation Technologies                 Fast Response for Industry Assistance Requests
Terminal Area Productivity                               Information Technology
Short-Haul Civil Tiltrotor                               Analytical Tools and Environments for Design
Intelligent Propulsion Systems Controls                  Intelligent System Controls and Operations
Aviation Systems Monitoring and Modeling                 Advanced Computing, Networking and Storage
System-Wide Accident Prevention                          Software Integrity, Productivity and Security
Aerospace Operations Systems                             Integrated Vehicle Health Management
Human-Automation Integration Research                    Stratospheric Observatory for Infrared Astronomy
Human Error and Countermeasures                          Lunar Prospector
Psychological/Physiological Stressors and Factors        Gravitational Biology and Ecology


Dryden Flight Research Center

Revolutionary Concepts                                   Advanced System Concepts
Advanced Airplane Flight Research                        Atmospheric Flight of Space Systems
Innovative Transport and Testbed Experiments             Flight Research Productivity
Flight Research                                          Environmental Research Aircraft Sensor
                                                          Technology

Glenn Research Center

System Integration and Assessment                        Emissions Reduction
Highly Loaded Turbomachinery                             Materials and Structures for High Performance
Weather Accident Prevention                              Accident Mitigation
Aircraft Icing                                           Breakthrough Propulsion Physics
Propulsion Research and Technology                       Propulsion and Power
Ultra-Safe Propulsion                                    Zero CO2 Research
Higher Operating Temperature Propulsion                  Turbomachinery and Combustion Technology
Oil Free Turbine Engine Technology                       General Aviation Propulsion
Aerospace Propulsion for High Survivability              Emerging Survivable Aeropropulsion Technology
Propulsion Fundamental Research                          Hybrid Hyperspeed Propulsion
Pulse Detonation Engine Technology                       Propulsion Research and Technology




                                                    17
                                                                                                 Appendix C

Goddard Space Flight Center

Tracking and Data Relay Satellite System                  Operations and Ground Systems for Hubble Space
 Spacecraft Replenishment                                  Telescope
Research Carriers                                         Sounding Rockets
Balloons                                                  Spartan Mission
Explorers in Development                                  High Energy Solar Spectroscopic Imager Mission
Galaxy Evolution Explorer Mission                         Microwave Anisotropy Probe
Imager for Magnetopause-to-Aurora Global                  Flight Systems and Servicing for Hubble Space
 Exploration Mission                                       Telescope
Full-sky Astrometric Mapping Explorer Mission             High Energy Transient Experiment II Mission
Cooperative Astrophysics and Technology Satellite         Cosmic Hot Interstellar Plasma Spectometer
 Mission                                                   Mission
Inner Magnetosphere Explorer Mission                      International Collaborations at Goddard
Earth and Space Sciences                                  Swift Gamma Ray Burst Explorer Mission
Astro-E Mission                                           Solar Terrestrial Relations Observatory Mission
X-Ray Multi-Mirror Mission                                Spectrum-X-Gamma Mission
Thermosphere, Ionosphere, Mesosphere Energetics           International Gamma-Ray Astrophysics Laboratory
 and Dynamics Mission                                      Mission
Cluster II Mission                                        Solar Terrestrial Probes
Algorithm Development at Goddard                          CloudSat Mission
Solar B Mission                                           Space Technology 5
Terra Mission                                             Aqua Mission
Chemistry Mission                                         Ice, Clouds and Land Elevation Satellite Mission
Solar Radiation and Climate Experiment Mission            Landsat-7 Mission
Earth Observing System Data and Information               Pathfinder Instruments for Cloud and Aerosol
 System                                                    Spaceborne Observations Mission
Vegetation Canopy Lidar Mission                           Gravity Recovery and Climate Experiment Mission
Geostationary Operational Environmental Satellites        Polar Operational Environmental Satellites
Volcam Mission                                            Experiments of Opportunity
University Earth System Science                           Total Ozone Mapping Spectrometer-5
Triana Mission                                            Instrument Incubator Project
Advanced Technology Initiative                            Advanced Information Systems Technology
Geostationary Operational Environmental Satellite         Geostationary Operational Environmental Satellite
 Missions N-Q                                              Missions I-M
National Oceanic and Atmospheric Administration           Earth Observing-1 Mission (Advanced Land
 Missions A-N                                              Imager)
Two Wide-Angle Imaging Neutral-Atom                       Tomographic Experiment Using Radiative
 Spectrometers Mission                                     Recombinative Ionospheric Expendable Ultralite
                                                           Vehicle and Radio Sources Mission




                                                     18
Appendix C

Langley Research Center

Propulsion-Airframe Integration                        Single Aircraft Accident Prevention
Synthetic Vision                                       Select Integrated Low-Noise Technologies
Integrated Instrumentation and Testing Systems         Airframe Technology
Vehicle Systems Technology                             Inherently Reliable Systems
Super Lightweight Multi-Functional Systems             Revolutionary Airframe Concepts Research and
 Technology                                             Systems Studies
Aerospace Systems Concept to Test                      Morphing
Survivability                                          Advances Through Cooperative Efforts
Noise Reduction                                        General Aviation
Small Aircraft Transportation System                   Reduced Seat Cost
Hyper-X                                                Airframe Technology
Stratospheric Aerosol and Gas Experiment III –         Stratospheric Aerosol and Gas Experiment III -
 Meteor Mission                                         Flight of Opportunity Mission
Algorithm Development at Langley


Marshall Space Flight Center

X-33 Advanced Technology Demonstrator                  Future-X Pathfinder
X-34 Advanced Technology Demonstrator                  X-37 Advanced Technology Demonstrator
Flight Experiments                                     Space Transfer and Launch Technologies
Reusable Launch Vehicle – Focused                      Fastrac Engine
Upperstage                                             Space Transfer Technology
Interstellar Precursor                                 Propulsion Technology and Integration
Launch Technology                                      Advanced Propulsion Research
Microgravity Research                                  Microgravity Smoldering Combustion
Spread Across Liquids                                  Candle Flames in Microgravity-2
Extensional Rheology Experiment                        Collisions Into Dust Experiment-2
Space Product Development                              Shear History Extensional Rheology Experiment J
Colloidal Disorder-Order Transition                    Internal Fluid Flows Demonstration
Critical Velocity of Xenon-2                           Middeck Glovebox
Investigations of the Structure of Paramagnetic
 Aggregates From Colloidal Emulsions


Stennis Space Center

Affiliated Research Centers                            Verification and Validation
Mississippi Space Commerce Initiative                  Joint Sponsored Research
Science Data Purchase                                  Regional Earth Science Application Center
Earth Observing Commercial Application Program         Earth Observing Commercial Application Program
 – Synthetic Aperture Radar                             - Applications
Food and Fiber Applications of Remote Sensing          Earth Observing Commercial Application Program
                                                        - Hyperspectral




                                                  19
Appendix D. Management’s Response




               20
                 Appendix D




See Evaluation
of Response
Page 10




See Evaluation
of Response
Page 10




                              21
     Appendix D




                  See Evaluation of
                  Response Page
                  10




22
Appendix D




             23
     Appendix D




24
Appendix D




             25
     Appendix D




26
Appendix D




             27
     Appendix D




28
                        Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
R/Chief Information Officer Representative
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Goddard Space Flight Center
Chief Counsel, John F. Kennedy Space Center
Director, Lyndon B. Johnson Space Center
Director, George C. Marshall Space Flight Center
 Head, Program Management Council Working Group

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Director, Office of Management and Budget
Deputy Director of Management, Office of Management and Budget




                                             29
                                                                                 Appendix E

Non-NASA Federal Organizations and Individuals (Cont.)

Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisition Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             30
                NASA Assistant Inspector General for Auditing
                               Reader Survey



The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title:     NASA's Organizational Structure for Implementing the
                  Clinger-Cohen Act

Report Number:                                    Report Date:




Circle the appropriate rating for the following statements.

                                                Strongl                              Strongl
                                                   y      Agree   Neutra   Disagre   y         N/A
                                                Agree               l         e      Disagre
                                                                                        e
1. The report was clear, readable, and             5       4        3         2         1      N/A

   logically organized.
2. The report was concise and to the point.        5       4        3         2         1      N/A

3. We effectively communicated the audit           5       4        3         2         1      N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5       4        3         2         1      N/A

   information to support the finding(s) in a
   balanced and objective manner.


Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: _____                          No: _____
Name: ____________________________
Telephone: ________________________
Thank you for your cooperation in completing this survey.
Major Contributors to the Report

David L. Gandrud, Program Director, Information Technology Program Audits

Roger W. Flann, Program Manager

James H. Pearce, Auditor-in-Charge

Clara Lyons, Auditor

Nancy C. Cipolla, Report Process Manager

Barbara J. Smith, Program Assistant
